ER-B-00-02




         AUDIT
        REPORT



                                      SECURITY OVERTIME
                                            AT THE
                                 OAK RIDGE OPERATIONS OFFICE




                                              JUNE 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                         Washington, DC 20585

                                                  June 21, 2000

MEMORANDUM FOR THE MANAGER, OAK RIDGE OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager (Signed)
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Security Overtime at the Oak Ridge Operations
               Office"


BACKGROUND

Historically, the Oak Ridge Operations Office (Operations Office) has obtained security services
from its site operating contractors. Until recently, Lockheed Martin Energy Systems, Inc., (LMES)
was responsible for operating the three major sites in Oak Ridge and providing security services at
these sites. In Calendar Year (CY) 1999, LMES' Security Division worked 186,000 hours of
overtime, at a cost of $5.1 million, accounting for 50 percent of LMES' total overtime hours for the
year.

Recent changes have resulted in the Operations Office's three major sites being operated by three
different contractors. To gain more administrative and cost control over security, and to capitalize on
the efficiencies associated with a centralized approach, the Operations Office awarded a time-and-
material-award-fee contract for security services to Wackenhut Services, Inc., (Wackenhut) in
October 1999. The objective of this audit was to determine whether the Operations Office's new
security contract provides incentives for Wackenhut to reduce overtime and minimize costs.

RESULTS OF AUDIT

The new contract does not provide Wackenhut with incentives to reduce overtime or minimize costs.
To the contrary, the contract allows Wackenhut to work up to 26 percent more overtime than worked
by LMES. This occurred because the Operations Office did not consider contractual incentives for
overtime reductions to be necessary. In addition, the Operations Office did not perform a
comprehensive analysis to evaluate staffing and overtime requirements for the new contract. As a
result, if Wackenhut works the maximum overtime allowed by the contract, the Department will
incur at least $8.1 million in avoidable overtime costs during the 3-year base term of the contract. In
addition, the Department could incur $3.2 million in excessive award fee during the 3-year base term
of Wackenhut's contract.

MANAGEMENT REACTION

Management concurred with the finding and recommendations and agreed to initiate corrective
actions.

Attachment
SECURITY OVERTIME AT THE OAK RIDGE OPERATIONS
OFFICE


TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 1


                Avoidable Overtime

                Details of Finding.......................................................................3

                Recommendations and Comments ...........................................5


                Appendix 1

                Scope and Methodology.............................................................7


                Appendix 2

                Prior Audit Reports .....................................................................8
OVERVIEW

INTRODUCTION AND   Historically, the Operations Office has obtained security services from
OBJECTIVE          its site operating contractors. Until recently, Lockheed Martin Energy
                   Systems, Inc., (LMES) was responsible for operating the three major
                   sites in Oak Ridge and providing security services at these sites. In
                   Calendar Year (CY) 1999, LMES' Security Division worked 186,000
                   hours of overtime, at a cost of $5.1 million, accounting for 50 percent
                   of LMES' total overtime hours for the year.

                   Recent changes have resulted in the Operations Office's three major
                   sites being operated by three different contractors. To gain more
                   administrative and cost control over security, and to capitalize on the
                   efficiencies associated with a centralized approach, the Operations
                   Office awarded a time-and-materials-award-fee contract1 for security
                   services to Wackenhut in October 1999. The contract requires
                   Wackenhut to perform multi-disciplinary services, including a
                   protective force, information security, and personnel security for the
                   Y-12 Plant, Oak Ridge National Laboratory, East Tennessee
                   Technology Park, and other Oak Ridge facilities. The contract provides
                   security services for CYs 2000 through 2002, plus two 1-year options.
                   The 3-year base term of the contract is valued at $218 million.

                   The objective of the audit was to determine whether the Operations
                   Office's new security contract provides incentives for Wackenhut to
                   reduce overtime and minimize costs.

CONCLUSIONS AND    The new security contract does not provide Wackenhut with incentives
OBSERVATIONS       to reduce overtime or minimize costs. To the contrary, the contract
                   allows Wackenhut to work up to 26 percent more overtime than worked
                   by LMES. This occurred because the Operations Office did not
                   consider contractual incentives for overtime reductions to be necessary.
                   In addition, the Operations Office did not perform a comprehensive
                   analysis to evaluate staffing and overtime requirements for the new
                   contract. As a result, if Wackenhut works the maximum overtime
                   allowed by the contract, the Department will incur $37 million in
                   fully-burdened overtime costs during the 3-year base term of the
                   contract, including at least $8.1 million in avoidable overtime. In
                   addition, the Department could incur $3.2 million in excessive award
                   fee during the 3-year base term of Wackenhut's contract.

                   1
                     The Operations Office combined elements of a time-and-materials contract and
                   incentive contracting provisions of the Federal Acquisition Regulation resulting in a
                   hybrid time-and-materials-award-fee contract. The Operations Office priced labor
                   hours in accordance with time-and-materials requirements except it excluded profit
                   from the hourly rate. Profit was priced separately as award fee in accordance with
                   incentive contracting.

Page 1                                                                Introduction and Objective
         These conditions are similar to findings reported in prior Office of
         Inspector General reports (Appendix 2) on contractor overtime practices
         at other Department sites.

         The matters discussed in this report represent material internal control
         weaknesses within the Department that should be considered when
         preparing the yearend assurance memorandum on internal controls.



                                                        (Signed)

                                               Office of Inspector General




Page 2                                           Conclusions and Observations
AVOIDABLE OVERTIME


Wackenhut's Contract      The new security contract does not provide incentives for Wackenhut to
Does Not Provide          reduce overtime or minimize security costs. To the contrary, the
Incentives to Reduce      contract provides financial incentives for Wackenhut to hire 100
Overtime or Minimize      additional security guards and still work 26 percent more overtime than
Costs                     worked by LMES in CY 1999.

                          LMES Security Division employees worked significant amounts of
                          overtime on a continual basis in CYs 1998 and 1999 due to staffing
                          shortages. For example, during CY 1999 two security guards averaged
                          more than 30 hours of overtime per week, and 17 others averaged more
                          than 20 hours of overtime per week. LMES could have avoided a
                          portion of its overtime by hiring full-time security guards to fill vacant
                          positions beginning in October 1998.

                          When the Operations Office decided to award a separate contract for
                          security in 1999, it had an opportunity to reduce overtime costs by
                          providing contractual incentives to Wackenhut to fill vacant security
                          guard positions. The contract includes $26 million for Wackenhut to
                          hire 100 additional security guards and $37 million to work 234,000
                          overtime hours each year. By comparison, the LMES security division
                          worked only 159,000 overtime hours in CY 1998 and 186,000 overtime
                          hours in CY 1999. Despite the increase in labor hours proposed for
                          CYs 2000 through 2002, including both regular and overtime hours, the
                          Operations Office did not increase the scope of work to be performed
                          by Wackenhut.

Department's Goal Is      The Department has a goal of more cost-effective operations. The
More Cost-Effective       Department of Energy Annual Performance Plan for FY 2000 states
Security Operations       that the Department will use prudent contracting and business
                          management approaches that emphasize results, accountability, and
                          competition; improve timeliness; and minimize costs. It also states that
                          the Department will strengthen the management of its projects,
                          materials, facilities, land, infrastructure, and other assets to ensure safe,
                          sound, and cost-effective operations.

Management Did Not        Management did not include incentives in the new security contract
Consider Contractual      because it did not consider contractual incentives to be necessary. In
Incentives Necessary or   addition, the Operations Office did not perform a comprehensive
Analyze Staffing          analysis to evaluate staffing and overtime requirements for the new
Requirements              contract. The Contracting Officer believed that continuous oversight
                          would provide sufficient controls to minimize Wackenhut's overtime.
                          Specifically, the Operations Office would review Wackenhut's invoices
                          to the Department and question any unusual overtime hours billed by
                          the contractor.


Page 3                                                                             Details of Finding
                             Management did not perform a comprehensive analysis to determine
                             the appropriate trade-off between increased staffing levels and the
                             use of overtime for Wackenhut's contract. Operations Office
                             officials stated that the provisions to hire additional guards and work
                             234,000 overtime hours were based on requirements outlined in the
                             Site Safeguards and Security Plan developed by the previous security
                             contractor. However, the Operations Office could not trace the
                             proposed staffing or overtime hours to specific requirements of the
                             Site Safeguards and Security Plan.

                             In our opinion, management's actions are not consistent with the
                             Department's policy to use prudent contracting and business
                             management approaches that emphasize results, accountability, and
                             cost-effectiveness. The Government Performance and Results Act of
                             1993 was designed to improve Federal program effectiveness by
                             promoting a new focus on program results and improving
                             management of the Federal government. The new security contract
                             with Wackenhut establishes a ceiling for overtime hours by job
                             category; however, it does not include performance measures for
                             overtime. The Operations Office could have established contractual
                             incentives to reduce overtime hours and costs. For example, the
                             contract could have included award fee provisions whereby
                             Wackenhut could earn performance award fee by hiring additional
                             security guards, working less overtime, and reducing overall security
                             costs.

The Department Could Incur   The contract rewards the contractor for maximizing overtime hours
Avoidable Overtime Costs     and hiring 100 additional guards, rather than reducing the overtime
and Excessive Fee            worked and minimizing costs. If Wackenhut works the maximum
                             overtime allowed by the contract, the Department will incur at least
                             $8.1 million in avoidable overtime costs during the 3-year base term
                             of the contract. Avoidable overtime includes the cost of overtime in
                             excess of the 186,000 hours worked by LMES in CY 1999. In
                             addition to the overtime in excess of 186,000 hours, the Department
                             could avoid an undeterminable amount of overtime associated with
                             12 to 30 vacant security guard positions.2



                             2
                               LMES' Security Division was authorized to fill 22 vacant positions in July 1998.
                             The division hired 13 guards between July and September 1998; however, with
                             retirements and attrition, it still had 19 vacancies in September 1998. Between
                             January and July 1999, LMES hired 7 more guards, leaving 12 positions unfilled.
                             LMES announced a layoff in August 1999, and the hiring process was suspended.
                             The number of vacancies increased to about 30 in February 2000.

Page 4                                                                                  Details of Finding
                  Further, the Department could incur $3.2 million in excessive award
                  fee during the 3-year base term of Wackenhut's contract. Excessive
                  award fee includes $1.3 million based on proposed overtime
                  premium costs and $1.9 million based on the proposed cost of hiring
                  100 additional security guards. The available award fee for
                  Wackenhut's contract was calculated as a percentage of proposed
                  labor costs, including overtime premium and overhead. Since
                  overtime hours were priced at one-and-one-half times the regular
                  hourly rate, the contract includes 50 percent more available award
                  fee for overtime hours than for regular hours. The practice of
                  calculating fee based on total costs, including overtime premium,
                  encourages contractors to propose large amounts of overtime in order
                  to obtain more award fee. Further, since the hiring of 100 additional
                  security guards is intended to decrease overtime, the award fee
                  related to hiring new employees results in a duplication of a portion
                  of the fee included for overtime hours.

                  On its first invoice covering 49 days, Wackenhut billed the
                  Department 27,664 overtime hours. At this rate, Wackenhut will
                  incur 206,000 overtime hours in the first year, which is an increase
                  of about 11 percent over LMES' 1999 overtime hours.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                      1.   Perform a comprehensive cost analysis to determine the
                           appropriate trade-off between increased staffing levels and
                           the use of overtime in the execution of the scope of work
                           authorized in the Wackenhut contract;

                      2.   Use the cost analysis as a basis to establish measurable
                           performance objectives with incentives for Wackenhut in
                           the Annual Performance Evaluation Plan for the
                           Wackenhut contract to incentivize the most cost-effective
                           use of overtime; and

                      3.   Ensure that future security services contracts include
                           performance incentives to reduce overtime and minimize
                           costs, and do not allow higher rates of fee for overtime
                           hours compared to regular hours.




Page 5
                                                 Recommendations and Comments
MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      agreed to initiate corrective actions. Specifically, management
                      agreed to have Wackenhut perform a cost analysis upon which
                      performance incentives can be based. In addition, management
                      agreed that future security services contracts will include incentives
                      to keep overtime at a minimum.

AUDITOR COMMENTS      Management's comments were responsive to the finding and
                      recommendations.




Page 6                                                Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from May 24, 1999, to April 28, 2000, at the
              Oak Ridge Operations Office and Y-12 Plant in Oak Ridge, Tennessee.
              The scope of the audit included overtime charges reported in the LMES
              Payroll and Leave System from January 1998 through December 1999,
              and the Oak Ridge Operations Office prime contract with Wackenhut
              issued in October 1999. On June 1, 2000, we held an exit conference
              with the Chief Financial Officer, Oak Ridge Operations Office.

METHODOLOGY   To accomplish the audit objective, we:

              •   Analyzed security overtime costs incurred by LMES employees for
                  CYs 1998 and 1999;

              •   Reviewed the Department's contract for security services with
                  Wackenhut;

              •   Evaluated the overtime and overall cost provisions in the
                  Wackenhut contract;

              •   Discussed the goals and objectives of the new security contract with
                  Operations Office personnel;

              •   Interviewed LMES employees to determine reasons for overtime
                  worked in CYs 1998 and 1999;

              •   Quantified avoidable costs associated with the new security
                  contract; and

              •   Discussed the establishment of performance incentives with
                  Operations Office personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of applicable sections of the Wackenhut
              contract, including the performance measures established in the
              contract. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not conduct a reliability assessment of
              computer-processed data because only a very limited amount of
              computer-processed data was used during the audit.



Page 7                                                     Scope and Methodology
Appendix 2

PRIOR AUDIT REPORTS   The Office of Inspector General has issued the following audit reports
                      addressing overtime at various Department sites.

                      1. DOE/OIG-0381, Management and Operating Contractor Overtime
                         Costs, dated October 27, 1995. The purpose of the audit was to
                         evaluate contractor overtime payments for compliance with
                         applicable regulations and contract provisions. The objective was
                         to determine whether the Department had controls in place to
                         monitor and manage contractor overtime use. An analysis of the 50
                         management and operating contracts that were in effect at the end of
                         Fiscal Year 1994 and a detailed review at four of these contractors
                         showed that the Department did not adequately monitor and manage
                         contractor efforts to minimize overtime. Management did not
                         specifically concur or nonconcur with the finding and
                         recommendations. Management commented that it had identified a
                         need to implement an overtime policy that was consistent with
                         contract reform initiatives and that balances the need for reduced
                         oversight against the need to demonstrate responsible stewardship
                         of taxpayer dollars.

                      2. WR-B-95-05, Transportation Safeguards Division Couriers' Work
                         Schedules, dated April 3, 1995. The objective of the audit was to
                         determine if the Transportation Safeguards Division established
                         couriers' work schedules to effectively and economically meet
                         operating needs. The couriers worked a traditional 40-hour work
                         schedule from Monday through Friday that did not fit the job
                         requirements. As a result, the couriers received an average of 39
                         hours of overtime each pay period. Management partially
                         concurred and acknowledged that cost savings possibly could be
                         realized.

                      3. DOE/IG-0354, Management and Cost of the Department of
                         Energy's Protective Forces, dated July 27, 1994. The purpose of
                         the audit was to determine if protective forces were efficiently
                         managed and appropriately sized in light of the changing missions
                         and current budget constraints. The audit noted several
                         opportunities for the Department to improve the operational
                         efficiency of the protective forces operations, including eliminating
                         overtime paid to officers prior to completion of the basic 40-hour
                         workweek. Management concurred with the findings and
                         recommendations and took appropriate actions to improve the
                         efficiency of managing protective forces.




Page 8                                                                   Prior Audit Reports
                                                                                IG Report No.: ER-B-00-02

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
